The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

                                         May 30, 2012




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (the IG Act),
the U.S. International Trade Commission (USITC or Commission) hereby transmits the
Semiannual Report of the USITC Inspector General for the period October 1, 2011 to March 31,
2012.

The Commission appreciates the work performed by the Office of Inspector General in
promoting the effectiveness, efficiency, and integrity of Commission programs and operations.
Inspector General Philip M. Heneghan and his staff provide invaluable assistance to the
Commission. We look forward to continuing to work with Mr. Heneghan to strengthen the
Commission’s operations.

The Inspector General’s Semiannual Report identifies the top management and performance
challenges in FY 2012 that require significant attention from the USITC. The Commission
concurs with the critical challenges identified by the Inspector General. We are addressing these
challenges and believe that the corrective action plans we have in place will answer the
challenges identified by the Inspector General.

This letter describes the actions we are taking to address the challenges identified by the
Inspector General: (1) internal control, (2) financial management, and (3) information
technology – location independence. The letter also describes the work we are doing to address
recommendations by the Inspector General and external reviewers.




                                                1
I.   Management and Performance Challenges

     A. Internal Control

Transforming the management culture with respect to documenting agency processes and
procedures is a top priority to ensure that the USITC can efficiently meet its objectives in an era
of government-wide budgetary limitations. In response to these challenges, the Commission has
restructured its management and has called upon its senior managers to work collectively and
strategically to manage the agency’s human, financial, and information resources. The
Commission has initiated process mapping in several operations, which will enable the agency to
document its processes and to explore whether we can make them more efficient.

The Commission added a new performance element – agency-wide management – to the
performance plan of every member of the Senior Executive Service (SES). The multi-year effort
to transform the management structure and culture of the Commission, which is underway,
requires SES to be held more accountable for the management of the agency as a whole. The
SES and other supervisors must be more systematic in verifying that assignments are being
completed and procedures are being followed, whether that is in the operational or administrative
areas of the Commission. Strong internal controls will enable managers to monitor progress.

     B. Financial Management

The Commission’s FY 2011 financial statement audit resulted in an unqualified opinion. This
represents substantial progress by the Commission in its financial management remediation
efforts over the last two fiscal years. The independent auditor had issued a disclaimer of opinion
on the Commission’s FY 2009 financial statement and a qualified opinion on the Commission’s
FY 2010 financial statement. Although the agency has made substantial progress, full
implementation of our corrective actions is ongoing.

During the reporting period, the Commission implemented its strategic human capital plan to
establish a new Office of the Chief Financial Officer (CFO). The Commission successfully
recruited an experienced CFO, who started in March. The Commission now is in the process of
transferring the agency’s financial, budget, procurement, and internal control functions to the
new office. The CFO has begun to hire and train staff with requisite high-level analytical and
communication skills. In addition, the CFO has initiated the consolidation of financial data to a
shared work site and is mapping processes and key internal controls to improve the execution of
agency resources.

The Commission is taking steps to transform its approach to financial management from an
accounting exercise to a process that provides transparency and accountability in the formulation,
execution, performance, and management of agency budgetary resources. The CFO will provide
managers with access to timely, reliable, and practical information concerning the financial
affairs of the agency to assist managers in program planning and decision-making.

     C. Information Technology – Location Independence



                                                 2
The Report notes that the Commission has not completed final action on two recommendations
dating back to 2005 concerning the Commission’s plans for disaster planning, testing major
applications, and having an alternate data processing facility – continuity of operations (COOP).

Information technology (IT) services are integral to the Commission’s operations. Recognizing
that the agency currently lacks the resources to ensure continuity of IT operations if a disaster
were to occur, the Commission’s Chief Information Officer (CIO) has begun to implement
actions necessary to achieve a robust disaster recovery capability. During the reporting period,
the agency significantly expanded its internet bandwidth capacity. It also has acquired access to
a remote datacenter facility with the hardware and software necessary to run critical IT services
in the event of a disaster. Additionally, the CIO also has performed proof-of-concept testing at
the remote datacenter by operating a sample IT service in the disaster recovery environment.
The outcome of this testing was favorable.

By the end of calendar 2012, the CIO will complete hardware and software configuration efforts
at the remote datacenter and implement and test all mission-critical applications from the
secondary site. With these efforts, the critical IT services of the agency should be available in
the event of a disaster or outages at the Commission’s headquarters.

II.   Actions on Recommendations

      A. Actions on Recommendations Made within the Past Year

The Inspector General issued seven reports during this reporting period, which contained 28
recommendations. For each of the 28 new recommendations issued during this reporting period,
the Commission issued corrective action plans to address each recommendation. In addition, the
Commission issued corrective action plans to address 42 recommendations put forth by the
Inspector General at the end of the previous reporting period. The combined 70 corrective action
plans that were issued in this reporting period include 138 individual corrective action steps,
referred to as “management decisions”. The Commission completed 49 of these management
decisions this reporting period. The Commission remains focused to both address and rectify
these issues.

      B. Actions on Recommendations Made from Prior Periods

The Commission expects to complete final action on the two recommendations related to COOP
planning covered in section I.C. above as scheduled.

The Report notes that the Commission has not completed final action on a 2010 recommendation
to bring its transit program into compliance with applicable laws and regulations. On August 1,
2011, the Commission requested the Comptroller General of the United States to make a
determination on its transit program. Once the Comptroller General issues its determination, the
Commission will bring its program fully into compliance as necessary based on the ruling.

The statistical tables required under the IG Act are included as Appendix A to this report.

      C. Actions on External Reviews
                                                3
During the reporting period, the Commission made progress with respect to completing actions
from recommendations put forth by previous external reviews conducted by different oversight
agencies. These three reviews included one by the U.S. Equal Employment Opportunity
Commission (EEOC) on the Commission’s EEO program, and two by the Office of Personnel
Management (OPM) on (a) delegated examining authority and (b) human resources. The
Commission completed final action on 16 of the management decisions associated with these
recommendations, which added greater transparency and accountability to our HR and EEO
practices. The agency is also on track to complete the remainder of these management decisions
in subsequent reporting cycles.



Deanna Tanner Okun
Chairman




                                              4
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


April 30, 2012                                                    OIG-KK-006

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General (OIG) for the period October 1, 2011, to March 31, 2012.

During this period, we issued seven reports and made 28 recommendations to promote
the efficiency, effectiveness, and integrity of the Commission’s operations.

I would like to thank you for your commitment to strengthening the operations of the
Commission and supporting the work of my office. During this reporting period, the
Commission completed final action on 20 Inspector General recommendations and 20
recommendations made by external oversight organizations.




Philip M. Heneghan
Inspector General
                   U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General.............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges............................................................ 1
  1. Internal Control.......................................................................................................... 2
  2. Financial Management............................................................................................... 3
  3. Information Technology – Location Independence................................................... 3

Inspector General Reports Issued During this Period .................................................. 4

Audit Reports Issued During this Period........................................................................ 5
  Audit of FY 2011 Financial Statement, OIG-AR-12-02 ................................................ 5
  Report on Internal Control for FY 2011, OIG-AR-12-03............................................... 5
  Report on Compliance with Laws and Regulations for FY 2011, OIG-AR-12-04 ........ 6
  Management Letter for 2011 Financial Statements, OIG-ML-12-05............................. 6
  Audit of Title VII Preliminary Investigation Process, OIG-AR-12-06 .......................... 7
  USITC Management and Performance Challenges, OIG-MR-12-01............................. 7

Evaluation Reports Issued During this Period............................................................... 8
  Evaluation of Employee Out-Processing Program ......................................................... 8

Significant Recommendations from Prior Periods ........................................................ 8

Hotline and Investigations................................................................................................ 9
 Investigations and Inquiries – Overview ........................................................................ 9
 OIG Hotline Contacts ..................................................................................................... 9
 Investigations and Inquiries .......................................................................................... 10

External Reviews Completed During this Period ........................................................ 10
  Office of Government Ethics – Ethics Program Review .............................................. 10

Status of Actions Related to External Reviews Completed During Prior Periods ... 11
  Office of Personnel Management – Delegated Examining Operations ........................ 11
  U.S. Equal Employment Opportunity Commission – EEO Program Review.............. 11
  Office of Personnel Management – Human Resources Review ................................... 12

Congressional Activities ................................................................................................. 12

Council on Inspectors General for Integrity and Efficiency Activities...................... 12

Federal Financial Management Improvement Act Reporting ................................... 13

                                                                i
                             Report Period: October 1, 2011, through March 31, 2012
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report

Peer Review ..................................................................................................................... 13

Tables
  Table 1:       Reporting Requirements Index ...................................................................... iii
  Table 2:       Management and Performance Challenges ..................................................... 2
  Table 3:       Reports by Subject Matter ............................................................................... 4
  Table 4:       Significant Recommendations from Prior Reports........................................ 14
  Table 5:       Reports with Questioned or Unsupported Costs............................................ 14
  Table 6:       Reports with Recommendations that Funds be Put to Better Use ................. 15
  Table 7:       Reports With Final Action Completed During This Reporting Period ......... 16
  Table 8:       Status of Reports Issued Without Final Action ............................................. 17

Appendices
Appendix A: Chairman’s Statistical Tables…………………………………………...A-1




                                                                 ii
                              Report Period: October 1, 2011, through March 31, 2012
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                         Table 1: Reporting Requirements Index



                         Reporting Requirements Index

   IG Act                                  Description                        Page
Section 4(a)(2)       Review of Legislation                                   None
                      Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                                1-3
                      Deficiencies
                      Description of Recommendations for Corrective
Section 5(a)(2)       Action with Respect to Significant Problems, Abuses,     4-8
                      and Deficiencies
                      Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                              8, 9, 14
                      Which Corrective Action Has Not Been Completed
                      A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                               None
                      Authorities
                      Summary of Instances Where Information or
Section 5(a)(5)                                                               None
                      Assistance was Unreasonably Refused
                      Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                                 4
                      during this Reporting Period
Section 5(a)(7)       Summary of Significant Reports                           4-8
                      Statistical Table showing Questioned and
Section 5(a)(8)                                                                14
                      Unsupported Costs
                      Statistical Table showing Recommendations Where
Section 5(a)(9)                                                                15
                      Funds Could be Put to Better Use
                      Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)      the Reporting Period for Which no Management            None
                      Decision Has Been Made
                      Description of Any Significant Revised Management
Section 5(a)(11)                                                              None
                      Decisions
                      Information Concerning any Significant Management
Section 5(a)(12)
                      Decision with Which the Inspector General is in         None
                      Disagreement
Section 5(a)(13)      Information described under section 5(b) of FFMIA        13
                      Results of Peer Review Completed During This
Section 5(a)(14)                                                               13
                      Period or Date of Last Peer Review
                      List of Any Outstanding Recommendations From
Section 5(a)(15)                                                               13
                      Peer Review
                      List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                               13
                      Office of Inspector General During this Period




                                            iii
                   Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                          Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and the Inspector General’s initiative.




                     Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a Semiannual Report that
summarizes the activities of the office. As such, this report covers the period from
October 1, 2011, through March 31, 2012. The 17 requirements, shown in Table 1, are
specified in the IG Act and must be included in the report. The layout of this Semiannual
Report is described below.

This Semiannual Report starts with a description of the Management Challenges Report,
OIG-MR-12-01, which identified the three most significant management challenges
facing the Commission. It then summarizes the results of the remaining six reports
issued during this period, describes significant recommendations from prior reports
where final action is not complete, and summarizes the hotline and investigation
activities of the Inspector General. The next section provides a summary of the reviews
conducted by external parties related to the Commission along with the status of
recommendations issued. The last sections supply information on other reportable
activities such as congressional activity, participation in the Council on Inspectors
General for Integrity and Efficiency, other compliance activities, and our Peer Review
status. Additional tables at the end of the report detail statistics on Office of Inspector
General reports and recommendations.




           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report, OIG-MR-12-01, on October 15, 2011.

                                               1
                     Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                        Inspector General Semiannual Report

The report identified the challenges based on information learned from audit, evaluation,
and inspection work, a general knowledge of the Commission’s programs and activities,
and input from management regarding challenges facing the agency and efforts the
agency has taken to address them. The management and performance challenges
identified by the Office of Inspector General in October 2011 include the three areas
identified in Table 2.


                      Table 2: Management and Performance Challenges

                     Management and Performance Challenges
               1. Internal Control
               2. Financial Management
               3. Information Technology – Location Independence



1. Internal Control
Commission management is responsible for establishing and maintaining a system of
internal controls that ensure effective and efficient operations, reliable financial reporting,
and compliance with laws and regulations. Reviews performed over the past year have
identified instances of weak or nonexistent internal controls. The most significant
weaknesses identified involved noncompliance with the Federal Manager’s Financial
Integrity Act and OMB Circular A-123, Management’s Responsibility for Internal
Control. Documented and consistent processes and procedures are necessary to provide a
reasonable level of assurance that the organization is operating in an efficient and cost-
effective manner.

Although initially identified in the financial management and procurement areas, the
internal control weaknesses appear to be a systemic problem throughout the Commission.
The Commission has a long-standing culture of undocumented and informal processes
used to complete daily tasks. The most significant challenge will be managing the
cultural changes associated with implementing new systems of internal control, while
replacing the many antiquated processes currently in place and often based on
personality. This will require first line supervisors to check, inspect, or review the work
of subordinates to ensure that these new procedures are being followed.




                                                2
                      Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                        Inspector General Semiannual Report


2. Financial Management
As a steward of taxpayer dollars, the Commission is responsible for implementing sound
financial management practices. The Commission has struggled to assure the accuracy of
its annual financial statements and does not have the technical system expertise to
provide managers with timely, reliable, and practical financial information. Deficiencies
in financial management have been previously reported; however, efforts to overcome the
problems have not been fully successful.

The Commission lacks personnel with the necessary technical or analytical skills required
to provide the appropriate reports and documentation to support regular financial
reporting. In addition, the lack of timely and practical financial reporting makes it
difficult for managers to effectively monitor the expenditure of funds, evaluate program
performance, and make informed financial decisions about their programs and operations.

Budget formulation, budget execution, procurement, accounting, and financial reporting
should be fully integrated with agency operations and include transparent processes that
promote accountability and deter potential fraud, waste, and abuse of agency resources.
The management challenge will be to transform the current approach to financial
management from an accounting exercise to an end-to-end process that provides
transparency and accountability of agency budgetary resources.

3. Information Technology – Location Independence
Use of information technology is an integral component of the Commission’s day-to-day
operations. These operations include internal communication as well as communications
with the public. The Commission depends on perfect, uninterrupted performance and
connectivity from its sole data center in order to function at a basic level. In addition, the
present network configuration does not allow staff to efficiently work without regard to
physical location, or to continue working with an outage impacting the data center.

The Commission has recently begun requiring electronic filing of petitions and other
submissions to improve efficiencies in their processes. Without an alternate data facility
or a mobile workforce, any event that would cause a loss of the Commission’s data center
or access to the USITC building would negatively impact all critical functions of the
Commission, including its ability to meet statutory deadlines for studies and
investigations.

These conditions could be avoided through the implementation of additional systems
including: office-wide wireless connectivity, increased bandwidth, high performance
remote access, and a secondary data center. If the Commission can successfully
implement these systems, it will enable staff to function regardless of the state of the
primary data center or the USITC’s building.



                                               3
                     Report Period: October 1, 2011, through March 31, 2012
                 U.S. International Trade Commission
                           Inspector General Semiannual Report


         Inspector General Reports Issued During this Period
 The Inspector General issued seven reports with a total of 28 recommendations during
 this reporting period. The Commission made management decisions on all 28
 recommendations in these reports, and the Inspector General agreed with all the
 management decisions.

 The Commission made management decisions for 42 recommendations issued during the
 last reporting period that were not due until after the last reporting period had closed.
 The Inspector General agreed with all of the management decisions.

 A listing of each report issued during this reporting period, by subject matter, is provided
 in Table 3 below. The key findings of each report are described in the sections that
 follow.

                                 Table 3: Reports by Subject Matter

                                   Reports by Subject Matter
  Subject           Report                                            Date           Number of
                                          Report Title
  Matter            Number                                           Issued       Recommendations
                                USITC Management and
Administrative                                                    10/15/2011                0
                 OIG-MR-12-01   Performance Challenges
                                Audit of FY 2011 Financial
Financial                                                         11/10/2011                0
                  OIG-AR-12-02  Statement
                                Report on Internal Control for
Financial                                                         11/10/2011               12
                  OIG-AR-12-03  2011
                                Report on Compliance with
Financial                                                         11/10/2011                0
                  OIG-AR-12-04  Laws and Regulations 2011
                                Management Letter for 2011
Financial                                                         12/12/2011                3
                  OIG-ML-12-05 Financial Statements
                                Audit of Title VII Preliminary
Operations                                                        01/23/2012                2
                  OIG-AR-12-06  Investigation Process
                                Evaluation of Employee Out-
Operations                                                        01/25/2012               11
                  OIG-ER-12-07  Processing Program
Total Recommendations Issued During This Reporting Period                                  28
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put to better
use in any of these reports.




                                                    4
                         Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                Audit Reports Issued During this Period
The Inspector General issued five audit reports during this period. This section provides
the report title, results, and a brief summary of each audit report.

Audit of FY 2011 Financial Statement, OIG-AR-12-02

RESULT: The audit resulted in an unqualified opinion of the Commission’s 2011
financial statements.

The Inspector General engaged the services of an independent accounting firm to audit
the balance sheet and related statements of net cost, changes in net position, and
budgetary resources for fiscal year 2011. The auditors were able to obtain sufficient
evidence to assert that the Commission’s financial statements for the fiscal year ended
September 30, 2011, present fairly in all material respects the financial position of the
Commission.

This unqualified opinion represented an improvement over 2010, when the auditors were
unable to substantiate the amounts associated with undelivered orders and the related
accounts payable, resulting in a qualified opinion.

Report on Internal Control for FY 2011, OIG-AR-12-03

RESULT: The audit identified three material weaknesses and one significant deficiency.

As part of the financial audit, the auditors reviewed the Commission’s internal control
over financial reporting. The auditors identified the following three material weaknesses
and one significant deficiency.

Material Weaknesses:

     x   Insufficient resources and personnel with appropriate skill sets;
     x   Inadequate controls over undelivered orders, accounts payable, and
         expenditures; and
     x   Inadequate controls surrounding the procurement process.

Significant Deficiency:

     x   Inadequate internal controls over financial reporting.

All four of these conditions have been previously identified in both the 2009 and 2010
financial statement audit reports. The Commission received a disclaimer in 2009 and a


                                               5
                     Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

qualified opinion in 2010. The auditors were able to determine that the FY 2011
financial statements were fairly represented, because a significant data clean-up was
conducted immediately before year-end, even though the Commission did not have the
proper controls in place for the majority of the fiscal year.

This report included 12 new recommendations for the Commission’s management. The
Chairman agreed with the assessment of the identified weaknesses and made
management decisions for all of the recommendations. The Commission completed two
of the 12 recommendations during this reporting period.

Report on Compliance with Laws and Regulations for FY 2011, OIG-AR-12-04

RESULT: The report identified one instance of noncompliance related to the
Commission’s transit subsidy and parking program.

As part of the financial audit, the Inspector General engaged the services of an
independent accounting firm to audit the Commission’s compliance with certain laws and
regulations. The results of the testing performed by the audit team identified one instance
of noncompliance related to the Commission’s transit subsidy and parking program,
which was a repeat finding from FY 2010.

In response to one of the initial recommendations, the Commission made a management
decision to obtain guidance from the Government Accountability Office. During fiscal
year 2011, the Commission formally requested the Government Accountability Office to
make a determination on (1) the Commission’s past parking and transit subsidy program,
and (2) a proposed parking and transit subsidy program.

The Commission is waiting for a reply from the Government Accountability Office and
as a result, no additional recommendations were made in this report.

Management Letter for 2011 Financial Statements, OIG-ML-12-05

RESULT: The Management Letter highlighted deficiencies in the cash disbursement
process and the prepayment process.

As part of the audit of the Commission’s FY 2010 financial statements, during the testing
to assess management controls, the audit team noted operational inefficiencies in the cash
disbursement procedures and the prepayment process.

The Management Letter Report contained three recommendations intended to improve
internal control in the cash disbursement procedure and the prepayment process. The
Chairman agreed with the deficiencies identified in the report and made management



                                               6
                     Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report

decisions for all of the recommendations. The Commission has completed one of the
three recommendations during this reporting period.

Audit of Title VII Preliminary Investigation Process, OIG-AR-12-06

RESULT: The audit determined that the Commission’s Title VII Preliminary
Investigation Process is clear and transparent.

We performed an audit to determine if the Commission’s preliminary investigation
process is documented in a manner that can be easily understood; and if information
regarding the process is readily available to the public in an open and accessible manner.

We found that the Commission has a clearly documented handbook that described the
Title VII process. Interviews with staff involved in preliminary investigations described
the process in a manner that was consistent with the illustrated system process maps. In
addition, external parties surveyed indicated high satisfaction levels with the quality and
content of information provided through the Commission’s website.

While we found the Title VII preliminary investigation process to be clear and
transparent, two areas for improvement were identified: (1) eliminating redundant data
entry, and (2) reducing the use of hard copy documents.

The Inspector General made two recommendations that addressed areas for improvement.
The Chairman agreed with the findings and made management decisions to implement
both of the recommendations. The Commission began work to implement the
management decisions, but final action was not completed during this reporting period.

USITC Management and Performance Challenges, OIG-MR-12-01

RESULT: The report identified three management and performance challenges for the
Commission in the areas of internal control, financial management, and information
technology – location independence.

The Inspector General issued a report based on an assessment of the management and
performance challenges facing the Commission on October 15, 2011. Internal control
and financial management have been cited by the Inspector General since 2009.
Information technology – location independence is a new challenge that was identified by
the Inspector General during this reporting period. A summary of the findings is
described in the previous section, “Top Management and Performance Challenges.”




                                               7
                     Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report


            Evaluation Reports Issued During this Period
The Inspector General issued one evaluation report during this period. The evaluation
reviewed the Commission employee out-processing program. The result and summary
information for the evaluation report is described below.

Evaluation of Employee Out-Processing Program

RESULT: This evaluation found that USITC’s out-processing program did not have an
effective or efficient system to monitor and account for Commission resources.

We performed the evaluation to determine whether the Commission’s employee out-
processing program was conducted in an efficient manner. We reviewed the processes
and supporting documents from the offices with out-processing responsibilities. Some of
the key program elements included in the evaluation were as follows:

     x   Accounting for the return of Commission property (such as laptops, keys, library
         materials);
     x   Ensuring computer and facility access were disabled;
     x   Ensuring exit briefings were conducted; and
     x   Ensuring work documents were properly transferred.

The evaluation found that the Commission did not have documented procedures to guide
the responsible offices through the employee out-processing process. As a result,
documentation to account for the return of Commission resources was improperly
maintained, not complete, and in some cases nonexistent. The evaluation also identified
other weaknesses regarding the lack of training, outdated forms, and insufficient
resources available within the responsible offices to perform employee out-processing
functions.

We issued 11 recommendations to address the seven problem areas identified in the
evaluation report. The Chairman concurred with our assessment and issued management
decisions responsive to the recommendations.




          Significant Recommendations from Prior Periods
The Inspector General identified two recommendations from prior periods as significant.
The two recommendations are associated with disaster planning, testing major
applications, and having an alternate processing facility. They are significant because the


                                               8
                     Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Commission may be unable to restore core business functions or minimize the disruption
of services if an event were to occur.

The Inspector General previously reported two recommendations associated with the
disaster planning program. During this reporting period, the Commission completed
some management decisions, but did not complete final action on either of the
recommendations. A listing that identifies the remaining two recommendations along
with the report numbers has been provided in Table 4.



                           Hotline and Investigations

Investigations and Inquiries – Overview

In accordance with professional standards and guidelines, the Inspector General conducts
investigations and inquiries of criminal, civil, and administrative wrongdoing involving
Commission programs, operations, and personnel. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the activities of the
Commission.

The Inspector General reviews and analyzes all complaints received to determine the
appropriate course of action. In instances where it is determined that something less than
a full investigation is appropriate, the Inspector General may conduct a preliminary
inquiry into the allegation. If the information obtained during the inquiry indicates that a
full investigation is warranted, the Inspector General will commence an investigation of
the allegation.

OIG Hotline Contacts

The OIG maintains a Hotline for reporting information about suspected waste, fraud,
abuse, or mismanagement involving Commission programs or operations. Information
may be provided by telephone, fax, email, mail, or through a web-based form. Upon
request, a provider’s identity will be kept confidential. Reports may also be made
anonymously.

We receive complaints from employees, contractors, and the public that involve the
Commission’s areas of responsibility. We examine these complaints to determine
whether there is any indication of Commission wrongdoing or misconduct. If the
complaint does not relate to the USITC, we refer the complaint to the appropriate agency
for response. If the complaint does not have merit, we close the matter.


                                               9
                     Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

The OIG has worked to increase awareness of the Hotline throughout the Commission by
creating a series of Hotline posters and holding OIG Outreach sessions with Commission
offices.

Investigations and Inquiries

The Inspector General did not have any investigation or inquiry activity to report during
this reporting period.




          External Reviews Completed During this Period
There was one external review completed during this reporting period. The review was
performed by the U.S. Office of Government Ethics. The final report was issued on
March 30, 2012. The result and summary information of the external review is described
below.

Office of Government Ethics – Ethics Program Review

RESULT: The review determined that the Commission’s ethics program is effectively
administered and in compliance with applicable laws, regulations, and policies.

The Office of Government Ethics initiated the review of the Commission’s ethics
program in February 2012. The objective of the review was to identify the strengths and
weaknesses of the Commission’s ethics program and determine if it complied with
applicable laws, regulations, and policies. The Office of Government Ethics evaluated
the following seven specific program areas:

   x   Program Administration:
   x   Financial Disclosure;
   x   Education and Training;
   x   Advice and Counsel;
   x   Conflict Remedies;
   x   Enforcement; and
   x   Travel Acceptances.

The Office of Government Ethics report identified a number of model practices that have
been implemented and did not identify any weaknesses in the Commission’s ethics
program.



                                              10
                     Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report


    Status of Actions Related to External Reviews Completed
                      During Prior Periods
Office of Personnel Management – Delegated Examining Operations

The Office of Personnel Management performed a review of the Commission’s delegated
competitive examining operations. The review evaluated 25 criteria to determine the
extent the Commission’s delegated examining activities met merit system principals and
applicable laws and regulations, including the Veterans Preference Act of 1944.

The Commission met the anticipated results in 15 of the assessment areas and partially
met the standards in an additional five areas. The report identified one area involving the
review of certificate documentation in which the Commission did not meet the criteria.
The remaining four assessment areas were determined to be not applicable to the
Commission.

The report identified 10 recommendations to address the six instances where the
Commission’s delegated competitive examining operations did not fully meet the
standard. The Commission has developed management decisions to address the
recommendations. Final action was completed on all 10 recommendations during this
reporting period.


U.S. Equal Employment Opportunity Commission – EEO Program Review

The Equal Employment Opportunity Commission (EEOC) performed an evaluation of
the Commission’s progress towards becoming a model Equal Employment Opportunity
(EEO) workplace. The evaluation measured whether the Commission meets the six
essential elements of a model EEO program, as defined by Title VII of the Civil Rights
Act of 1964, and Section 501 of the Rehabilitation Act of 1973, as amended.

The final report was issued on December 15, 2010, and contained 11 recommendations to
improve five of the six essential elements of a model EEO program. The report also
acknowledged that the Commission had attained maximum efficiency in Element 5,
regarding the ability to resolve most workplace issues through informal methods.

The Commission has developed management decisions to address the recommendations
identified in the report. During this reporting period the Commission completed final
action on three of the 11 recommendations. The Commission is working on
implementing the remaining eight management decisions.




                                              11
                     Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Office of Personnel Management – Human Resources Review

The Office of Personnel Management completed an external review of the Commission’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the Commission’s human capital
program. The Commission made management decisions to implement all of the
recommendations and in prior reporting periods completed final action on 66 of the
recommendations. During this reporting period they completed final action on seven
recommendations. The Commission is working on implementing the remaining 10
management decisions.




                           Congressional Activities
The Inspector General submitted a report on the Commission’s compliance with the
Improper Payments Elimination and Recovery Act (IPERA). The Inspector General
reviewed the IPERA documentation and determined that the Commission is in
compliance with the law. The Commission is not subject to the IPERA; however, it
voluntarily seeks to comply with most of its requirements. The Inspector General’s
determination was submitted to the Senate Committee on Homeland Security and
Governmental Affairs, the House Committee on Oversight and Governmental Reform,
the Comptroller General, and the Controller of the Office of Management and Budget’s
Office of Federal Financial Management.




   Council on Inspectors General for Integrity and Efficiency
                          Activities
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE).

The Office of the Inspector General staff have volunteered to serve as members on
various working groups and committees that address cross-cutting issues such as,
knowledge management, cloud computing, investigations, cyber security, new media,
small agencies concerns, and legislative issues.




                                             12
                    Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                      Inspector General Semiannual Report


 Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.



                                     Peer Review
The last peer review of the Office of Inspector General was for the period ending
September 30, 2009, and the report was issued on May 27, 2010. All recommendations
made during the review were implemented by September 16, 2010. The full report is
posted on our web site.

The peer review schedule is set by the CIGIE. The next audit peer review will cover the
period through September 2012. In addition, my office is scheduled to perform an audit
peer review of another Agency that will cover fiscal year 2013.




                                             13
                    Report Period: October 1, 2011, through March 31, 2012
               U.S. International Trade Commission
                          Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed

                       Prior Significant Recommendations
                 Where Corrective Action Has Not Been Completed
    Report Number                                     Recommendation
                        Ensure major applications and general support system contingency plans
    OIG-AR-04-05
                        are updated and tested in accordance with NIST SP-800-34 guidelines.
                        With respect to each mission-critical application and general support
                        system, determine if an alternate processing facility is necessary and
    OIG-AR-04-05        identify the respective facility. At this alternate facility, contingency
                        plans should be tested and arrangements made for its use in the event of a
                        major interruption or disaster.


                     Table 5: Reports with Questions and Unsupported Costs

                  Reports with Questioned and Unsupported Costs
                                  Section 5(a)8
                                              Number of         Questioned         Unsupported
             Description
                                               Reports            Costs               Costs
Reports for which no management
decision has been made by the
                                                      5               $0                  $0
commencement of the reporting
period.
Reports issued during the reporting
                                                      7               $0                  $0
period.
                             Subtotals                                $0                  $0
Reports for which a management
decision was made during the                       12 1               $0                  $0
reporting period.
    x Dollar value of disallowed
                                                      0               $0                  $0
        costs.
    x Dollar value of allowed costs.                  0               $0                  $0
Reports for which no management
decision has been made by the end of                  0               $0                  $0
the reporting period.




1
  Management decisions were received in response to five reports issued during the previous reporting
period (OIG-SP-11-12, OIG-ER-11-14, OIG-AR-11-15, OIG-AR-11-16, and OIG-AR-11-17); four reports
were issued during this reporting period on which management made decisions; and three reports were
issued without recommendations.

                                                 14
                       Report Period: October 1, 2011, through March 31, 2012
           U.S. International Trade Commission
                     Inspector General Semiannual Report

         Table 6: Reports w/ Recommendations that Funds be Put to Better Use

     Reports with Recommendations that Funds be Put to Better Use
                           Section 5(a)9
                                                         Number of         Funds Put to
                    Description
                                                          Reports           Better Use
Reports for which no management decision has been
                                                                5               $0
made by the commencement of the reporting period.
Reports issued during the reporting period.                     7               $0
                                            Subtotals                           $0
Reports for which a management decision was made
                                                               12
during the reporting period.
    x Dollar value of recommendations agreed to by
                                                                                $0
        management.
    x Dollar value of recommendations not agreed
                                                                                $0
        to by management.
Reports for which no management decision has been
                                                                0               $0
made by the end of the reporting period.
                                            Subtotals                           $0




                                           15
                  Report Period: October 1, 2011, through March 31, 2012
              U.S. International Trade Commission
                          Inspector General Semiannual Report

          Table 7: Reports With Final Action Completed During this Reporting Period

                          Reports With Final Action Completed
                             During this Reporting Period
                           Reports Issued This Reporting Period
                                                            Final Action       Final Action
                                    # of       Mgt.
           Report Title                                     Complete in       Complete This
                                    Recs.    Decisions
                                                            Prior Periods         Period
  FY 2012 Management and
1 Performance Challenges,             0            0               0                  0
  OIG-MR-12-01
  FY 2011 Financial Statement,
2                                     0            0               0                  0
  OIG-AR-12-02
  FY 2012 Report On
3 Compliance with Laws and            0            0               0                  0
  Regulations, OIG-AR-12-04
                          Totals      0            0               0                  0
                                   Prior Reporting Periods
                                                            Final Action       Final Action
                                    # of       Mgt.
           Report Title                                     Complete in       Complete This
                                    Recs.    Decisions
                                                            Prior Periods         Period
  Audit of EDIS Security,
1                                     8            8               2                  6
  OIG-AR-11-07
  Evaluation of Sunset Review,
2                                     4            4               0                  4
  OIG-ER-11-14
                          Totals     12            12              2                  10




                                              16
                     Report Period: October 1, 2011, through March 31, 2012
                U.S. International Trade Commission
                            Inspector General Semiannual Report

                       Table 8: Status of Reports Issued Without Final Action

                     Status of Reports Issued Without Final Action
                                       This Reporting Period
                                                               Decisions
                                                                                  Final      Action
                                        # of      Mgt.            IG
             Report Title                                                         Action      Not
                                        Recs.   Decisions      Disagrees
                                                                                 Complete   Complete
                                                                 With
    Report on Internal Control for
1                                         12          12            0               2          10
    FY 2011, OIG-AR-12-03
    Management Letter for FY
2   2011 Financial Statement              3           3             0               1          2
    Audit, OIG-ML-12-05
    Audit of Title VII Preliminary
3                                         2           2             0               0          2
    Process, OIG-AR-12-06
    Evaluation of Employee Out-
4   Processing Program,                   11          11            0               0          11
    OIG-ER-12-07
            Subtotal Current Period       28          28            0               3          25
                                       Prior Reporting Periods
                                                                 Final            Final
                                                                Action            Action     Action
                                        # of      Mgt.
             Report Title                                      Complete          Complete     Not
                                        Recs.   Decisions
                                                                 Prior             This     Complete
                                                                Periods           Period
    FISMA FY 2004 Performance
1                                         14          14           12               0          2
    Audit, OIG-AR-04-05
    Report on Compliance with
2   Laws and Regulations,                 2           2             1               0          1
    OIG-AR-11-04
    Audit of Account Management,
3                                         8           8             0               5          3
    OIG-AR-11-11
    Inspection of Physical Security,
4                                         22          22            0               0          22
    OIG-SP-11-12
    Audit of Continuous
5                                         4           4             0               0          4
    Monitoring, OIG-AR-11-15
    Audit of Incident Management,
6                                         8           8             0               1          7
    OIG-AR-11-16
    Audit of Patch Management,
7                                         4           4             0               1          3
    OIG-AR-11-17
               Subtotal Prior Period      62          62           13               7          42




                                                 17
                        Report Period: October 1, 2011, through March 31, 2012
             U.S. International Trade Commission
                                        Appendix A

Appendix A: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs


  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              7              $0
 Reports for which final action had not been taken by
                                                                9              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                               12              $0
 during the reporting period.
   Reports for which final action was taken during the
                                                                5              $0
                    reporting period.
     x Dollar value of disallowed costs, recovered                             $0
         by management.
     x Dollar value of disallowed costs written off                            $0
         by management.
 Reports for which no final action has been taken by
                                                               11              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                    9           $0
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                12              $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                    5           $0
 reporting period including:
     x Dollar value of recommendations that were                             $150,000
         actually completed.
     x Dollar value of recommendations that
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                11              $0
 end of the reporting period.


                                             A-1

                        Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                Appendix A

         Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                              Funds Put        Reason Final
                             Disallowed
 Audit Report    Date Issued                   to Better      Action has Not
                               Costs
                                                  Use          Been Taken
                                                             Provided in Section
OIG-AR-11-04     11/10/2010         $0            $0             II.B. of the
                                                              Chairman’s letter
                                                              Provided in Section
OIG-AR-04-05     09/27/2005         $0            $0        I.C. of the Chairman’s
                                                                      letter




                                     A-2

                 Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
